  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 AGRICULTURE AND LABOR PROGRAM,
   INC., DID NOT ALWAYS CHARGE
ALLOWABLE COSTS TO THE COMMUNITY
 SERVICES BLOCK GRANT – RECOVERY
            ACT PROGRAM
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                      Lori S. Pilcher
                                                 Regional Inspector General

                                                        February 2013
                                                        A-04-11-01010
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Omnibus
Reconciliation Act of 1981, P.L. 97-35, (as amended in 1998 by the Community Opportunities,
Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-285) (the
CSBG Act), to provide funds to alleviate poverty in communities. Within the U.S. Department
of Health and Human Services, the Administration for Children and Families (ACF), Office of
Community Services administers the CSBG program. The CSBG program funds a State-
administered network of more than 1,000 local Community Action Agencies (CAA) that create,
coordinate, and deliver programs and services to low-income Americans. The CAAs provide
services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income. The CSBG program awarded $620 million
in fiscal year (FY) 2007, $643 million in FY 2008, $1.7 billion in FY 2009, and $689 million in
FY 2010.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to ACF for the CSBG program. Recovery
Act funds for the CSBG program were distributed to CAAs using an existing statutory formula.
The primary objective of the funds was to provide assistance to States and local communities,
working through a network of community action agencies and other neighborhood-based
organizations, for the reduction of poverty, revitalization of low-income communities, and
empowerment of low-income families and individuals in rural and urban areas to become fully
self-sufficient.

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State’s CSBG activities. Florida’s Department of
Community Affairs (the State) acted as the lead agency to carry out State activities for the CSBG
program. The State is responsible for approving CAA Recovery Act grant applications and
monitoring CAAs for compliance with program requirements. The State received $29,060,460
in Recovery Act funds for the State of Florida’s CSBG program.

Agricultural and Labor Program, Inc. (the Agency), a private, nonprofit organization, provides
services to households throughout Highlands and Polk counties in Florida. During FY 2009, the
State awarded the Agency $1,099,519 in CSBG grant funds and $1,471,687 in CSBG Recovery
Act funds for the period July 1, 2009, through September 30, 2010.

OBJECTIVE

Our objective was to determine whether selected CSBG costs that the State claimed for the
Agency’s program expenditures were allowable under the terms of the Recovery Act grant and
applicable Federal regulations.



                                                i
SUMMARY OF FINDINGS

Of the $357,155 in CSBG costs that the State claimed on behalf of the Agency and that we
reviewed, $298,718 was allowable under the terms of the grant and applicable Federal
regulations. However, the State claimed $36,142 in unallowable costs (or 10 percent of
reviewed expenditures) on behalf of the Agency, including:

   •   $32,024 in costs that was inadequately documented and

   •   $4,118 in costs that was not allocable to the Recovery Act grant.

The State also claimed $22,295 in costs (or 6 percent of reviewed expenditures) that may not
have been allocable to the Recovery Act grant and thus was potentially unallowable. The
unallowable costs the State claimed on behalf of the Agency occurred because its policies and
procedures were inadequate to ensure that costs were always adequately documented.
Furthermore, the Agency did not have adequate policies and procedures in place to ensure costs
charged to Federal awards were allocable. The potentially unallowable costs that the State
claimed on behalf of the Agency occurred because the Agency did not follow its cost allocation
plan.

Because the Agency charged unallowable costs to the Recovery Act grant, the funds could not be
used to reduce poverty, revitalize low income communities, and empower individuals to become
fully self-sufficient.

RECOMMENDATIONS

We recommend that the State:

   •   return to the Federal Government unallowable costs totaling $36,142,

   •   either return to the Federal government $22,295 or work with the Agency to determine
       what portion of the $22,295 was allocable to the Recovery Act grant,

   •   ensure that the Agency improves its policies and procedures to ensure that only allocable
       costs are charged to Federal awards and that all costs charged to Federal awards are
       adequately documented, and

   •   ensure that the Agency follows its cost allocation plan when applicable.

AGENCY COMMENTS

The Agency concurred, in part, with our findings and recommendations. Regarding our first
finding, the Agency stated that, based on its review of available documentation and following its
cost allocation plan, $24,992 of the identified costs directly benefitted the Recovery Act grant
and was reasonable, allowable, and allocable. The Agency concurred that the remaining $11,150

                                               ii
was unallowable due to timing and human error. It stated that it would review its current cost
allocation plan to determine whether it should make any changes.

Regarding our second finding, the Agency believed that the $22,295 in costs identified as
potentially unallowable were reasonable, allowable, and allocable in accordance with its cost
allocation plan; however, the Agency stated that it would work with the State to document those
costs.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the State claimed on behalf of the Agency $36,142 in unallowable costs and
$22,295 in costs that may not have been allocable to the Recovery Act grant.

The Agency did not provide adequate documentation, such as invoices and purchase requisitions,
to support the costs we identified as unallowable. Instead, it provided spreadsheets showing how
costs were allocated between its CSBG and Recovery Act grants on a percentage basis. This
documentation alone was not adequate to support that the costs were allowable to the Recovery
Act grant.

STATE COMMENTS

In response to our draft report, the State acknowledged that some unallowable costs had been
charged but did not concur with the majority of the unallowable costs and potentially
unallowable costs we identified.

The State concurred that the Agency made unallowable charges to the Recovery Act grant of
$4,887. For the remaining $31,255 in unallowable costs and $22,295 in potentially unallowable
costs, the State believed that Agency documentation justified most of the questioned items and
requested that we review this documentation.

Nonetheless, the State said that it planned to visit the Agency to ensure that it improved its
policies and procedures for allocating and documenting costs charged to Federal awards.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the Agency charged $36,142 in unallowable costs and $22,295 in potentially
unallowable costs to the Recovery Act grant. Based on our analysis of the additional information
that the State provided with its comments on our draft report, we reduced the potentially unallowable
costs from $41,396 to $22,295.




                                                 iii
                                                  TABLE OF CONTENTS
                                                                                                                                   Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Community Services Block Grant Program ...................................................... 1
              Florida Department of Community Affairs ....................................................... 1
              Agricultural and Labor Program, Inc. ................................................................ 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 2

FINDINGS AND RECOMMENDATIONS .......................................................................... 3

          UNALLOWABLE COSTS ........................................................................................... 4
              Federal Requirements ........................................................................................ 4
              Costs Inadequately Documented........................................................................ 4
              Costs Not Allocable ........................................................................................... 5
              Costs Potentially Not Allocable ......................................................................... 6
              Unallowable Costs Limited Resources for Program Goals ............................... 7

          RECOMMENDATIONS ............................................................................................... 7

          AGENCY COMMENTS ............................................................................................... 7

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 7

          STATE COMMENTS ................................................................................................... 8

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 8

APPENDIXES

          A: AGENCY COMMENTS

          B: STATE COMMENTS




                                                                    iv
                                          INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Omnibus
Reconciliation Act of 1981, P.L. 97-35, (as amended in 1998 by the Community Opportunities,
Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-285) (the
CSBG Act), to provide funds to alleviate poverty in communities. Within the U.S. Department
of Health and Human Services, the Administration for Children and Families (ACF), Office of
Community Services administers the CSBG program. The CSBG program funds a State-
administered network of more than 1,000 local Community Action Agencies (CAA) that create,
coordinate, and deliver programs and services to low-income Americans. The CAAs provide
services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income. The CSBG program awarded $620 million
in fiscal year (FY) 2007, $643 million in FY 2008, $1.7 billion in FY 2009, and $689 million in
FY 2010.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to ACF for the CSBG program. Recovery
Act funds for the CSBG program were distributed to CAAs using an existing statutory formula.
The primary objective of the funds was to provide assistance to States and local communities,
working through a network of community action agencies and other neighborhood-based
organizations, for the reduction of poverty, revitalization of low-income communities, and
empowerment of low-income families and individuals in rural and urban areas to become fully
self-sufficient.

Florida Department of Community Affairs

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State’s CSBG activities. Florida’s Department of
Community Affairs (the State) acted as the lead agency to carry out State activities for the CSBG
program. 1 The State is responsible for approving CAA Recovery Act grant applications and
monitoring CAAs for compliance with program requirements. The State received $29,060,460
in Recovery Act funds for the State of Florida’s CSBG program.

Agricultural and Labor Program, Inc.

Agricultural and Labor Program, Inc. (the Agency), a private, nonprofit organization, provides
services to households throughout Highlands and Polk counties in Florida. During FY 2009, the


1
 During our audit period, the Florida Department of Community Affairs oversaw the CSBG program. However, the
CSBG program is now administered by the Department of Economic Opportunity.

                                                     1
State awarded the Agency $1,099,519 in CSBG grant funds and $1,471,687 in CSBG Recovery
Act funds for the period July 1, 2009, through September 30, 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected CSBG costs that the State claimed for the
Agency’s program expenditures were allowable under the terms of the Recovery Act grant and
applicable Federal regulations.

Scope

We reviewed $357,155 of the $1,471,391 2 claimed by the Agency under its CSBG Recovery Act
agreement with the State of Florida for the period of July 1, 2009, through September 30, 2010.
This review is part of a series of audits planned by the Office of Inspector General to provide
oversight of funds provided by the Recovery Act. We did not perform an overall assessment of
the Agency’s internal control structure. Rather, we reviewed only the internal controls that
pertained to our objective.

We performed fieldwork at the Agency’s administrative office in Lake Alfred, Florida.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal requirements;

    •   confirmed that the Agency was not excluded from receiving Federal funds;

    •   reviewed the terms and conditions of the Agency’s CSBG Recovery Act grant;

    •   reviewed the Agency’s policies and procedures applicable to the CSBG program;

    •   reviewed the Agency’s cost allocation plan;

    •   reviewed the minutes from the Agency’s board of directors meetings and reviewed the
        Agency’s organizational chart;




2
 Although the Agency’s CSBG Recovery Act grant award totaled $1,471,687, the Agency only expended
$1,471,391 of that amount.


                                                    2
    •   reviewed the Agency’s annual Office of Management and Budget (OMB) Circular A-
        133 3 audit reports for FYs 2008 through 2010;

    •   reconciled the Agency’s CSBG Recovery Act financial status report for the year ended
        September 30, 2010, to its accounting records;

    •   judgmentally selected 136 transactions totaling $133,710 (30 salary transactions totaling
        $19,396 and 106 nonsalary transactions totaling $114,314) based on risk factors
        including whether the transactions:

            o were high dollar,

            o were for items usually considered unallowable (e.g., entertainment, memberships,
              etc.),

            o were recorded near the end of the grant period or outside of the grant period, or

            o appeared to be disproportionately allocated to the CSBG Recovery Act grant;

    •   reviewed sub-recipient costs totaling $223,445; and

    •   discussed findings with Agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the $357,155 in CSBG costs that the State claimed on behalf of the Agency and that we
reviewed, $279,617 was allowable under the terms of the grant and applicable Federal
regulations. However, the State claimed $36,142 in unallowable costs (or 10 percent of
reviewed expenditures) on behalf of the Agency, including:

    •   $32,024 in costs that was inadequately documented and

    •   $4,118 in costs that was not allocable to the Recovery Act grant.

The State also claimed $22,295 in costs (or 6 percent of reviewed expenditures) that may not
have been allocable to the Recovery Act grant and thus were potentially unallowable. The

3
 Per OMB Circular A-133, §__.200(a) non-Federal entities that expend $500,000 or more in a year in Federal
awards shall have a single or program-specific audit conducted for that year.

                                                       3
unallowable costs the State claimed on behalf of the Agency occurred because its policies and
procedures were inadequate to ensure that costs were always adequately documented.
Furthermore, the Agency did not have adequate policies and procedures in place to ensure costs
charged to Federal awards were allocable. The potentially unallowable costs the State claimed
on behalf of the Agency occurred because the Agency did not follow its cost allocation plan.

Because the Agency charged unallowable costs to the Recovery Act grant, the funds could not be
used to reduce poverty, revitalize low income communities, and empower individuals to become
fully self-sufficient.

UNALLOWABLE COSTS

Federal Requirements

Section 678D(a)(1)(B) of the CSBG Act requires that States that receive CSBG funds ensure that
cost and accounting standards of the OMB apply to a recipient of the funds under the subtitle.
As a result, ACF determined that non-profit Community Action Agencies are subject to 45 CFR
pt. 74. Federal regulations (45 CFR 74.27(a)) state that the allowability of costs for non-profit
organizations will be determined in accordance with 2 CFR pt. 230 (formerly OMB Circular
A-122), Cost Principles for Non-Profit Organizations.

To be allowable under a Federal award, costs must be reasonable, allocable, and adequately
documented (2 CFR pt. 230, App. A, A.2.a. and A.2.g.). Specifically, 2 CFR 230, App. A,
A.4.a. states, “[a] cost is allocable to a particular cost objective, such as a grant, contract, project,
service, or other activity, in accordance with the relative benefits received.” A cost that benefits
both a Federal award and other work is allocable to a Federal award if the cost can be distributed
in reasonable proportion to the benefits received. Any cost allocable to a particular award or
other cost objective may not be shifted to other Federal awards to overcome funding
deficiencies, or to avoid restrictions imposed by law or by terms of the award (2 CFR pt. 230,
App. A, § A.4).

Recipients of Federal funds must develop written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (45 CFR § 74.21(b)(6)).

Costs Inadequately Documented

The Agency did not adequately document $32,024 in costs charged to the Recovery Act grant.
The costs included certain supplies, training, travel, data communications, telephone, and utilities
costs. The Agency did not provide receipts or justification reflecting how the costs benefitted the
CSBG program.

For example, the Agency transferred $19,000 ($9,000 for utilities, $8,000 for telephone and data
communications, and $2,000 for office supplies) in costs from the regular CSBG program to the


                                                   4
Recovery Act grant but could not provide documentation of specific costs associated with the
transfers.

The Agency also transferred $3,691 in catering services and speaker fees for a leadership retreat
to the Recovery Act grant on the last day of the Recovery Act grant period (September 30,
2010). The costs had been previously charged to the Agency’s general fund. The transfer was
only supported by a journal entry which did not indicate why the transfer was made. Without
adequate support, there is no assurance the costs were for the benefit of the Recovery Act grant.

The Agency charged $8,870 in equipment costs in the final two days of the grant period without
documentation to indicate the purpose or need for the purchases. The charges included $4,073
for travel scanners and mobile printers, $2,684 for office furniture, and $2,114 for computers. In
response to inquiries regarding the need for these items, the Agency stated that it purchased the
computers, scanners, and printers to enhance the Agency’s capacity to access applicable record
keeping and tracking data resulting from job placement assistance and follow-up activities. The
Agency stated that it purchased the office furniture to enhance capacity to oversee and close out
the Recovery Act grant.

The Agency paid for expenditures that were missing some or all of the required documentation
because it did not follow its policies and procedures. Its policies and procedures required that
transactions be supported with adequate documentation including, but not limited to, purchase
orders, receiving reports, invoices, canceled checks, bank statements, receipt books, in-kind
vouchers, timesheets, travel reports, contracts, lease agreements, minutes of meetings, grant
packages, personnel action forms, personnel policies, responses to bid invitations, and tax
reports.

Costs Not Allocable

The Agency charged $4,118 in costs that were not allocable to the Recovery Act grant. Of the
charges to the Recovery Act grant:

   •   $2,313 was for travel and training costs for individuals who did not charge time to the
       grant,

   •   $1,626 was for costs incurred outside of the grant period, and

   •   $179 was for costs that benefitted other programs.

Travel and Training Costs for an Individual Who Did Not Charge Time to the Grant

The Agency charged $2,313 for the travel and training costs of two employees who did not
charge time to the Recovery Act grant. The costs included travel, lodging, and registration fees.




                                                5
Costs Incurred Outside the Recovery Act Budget Period

The Agency charged $1,626 in costs to the Recovery Act grant that was incurred outside the
budget period of July 1, 2009, through September 30, 2010. The costs included travel and
training costs for a conference in October 2010.

Costs Benefitted Other Programs

The Agency charged $179 in travel costs to the Recovery Act grant that benefitted other
programs, including $118 in costs for the Low Income Home Energy Assistance Program, $40 in
costs for the Early Head Start Program, and $21 in costs for a Florida Department of Education
Coordinator’s Meeting.

Inadequate Policies and Procedures

The Agency charged costs that were not allocable to the Recovery Act grant because its policies
and procedures were inadequate to ensure that only allocable costs were charged. While the
Agency’s Fiscal Management Policies and Procedures Manual addressed the need to “ensure
each program … pay[s] only its fair share of … cost” and that “no program … subsidiz[es]
another,” the Manual does not specify how this will be accomplished on a consistent basis.
Instead, it stated simply that the Agency will use “logical and rational methods.” As a result, the
Agency charged costs that were not allocable to the Recovery Act grant including travel and
training costs for employees who did not charge time to the grant, costs incurred outside of the
grant period, and costs that benefitted other programs.

Costs Potentially Not Allocable

The Agency allocated $22,295 in certain costs benefitting multiple programs to the Recovery Act
grant that may not have been allocable to that award. The Agency established rates for direct
charges to its programs at each location at which it provided services. The rates were based on
the Agency’s cost allocation plan, which stated that costs that benefitted multiple Agency
programs would be allocated on the basis of the number of employees working on the program
compared to the total number of employees. However, the documentation provided did not
include an established rate for the Recovery Act grant. Instead, the Agency charged 50, 75, or
100 percent of certain costs that benefitted multiple programs to the Recovery Act grant.

For example, the Agency charged $2,482 (representing 100 percent of the costs) for travel costs
for an employee who charged her time to multiple programs. Moreover, the travel included
attendance at two conferences that were not specific to the Recovery Act. Without supporting
documentation, we could not determine whether the costs were allocated to the Recovery Act
grant in reasonable proportion to the benefits received. Therefore, we cannot determine whether
the $22,295 that the Agency charged to the Recovery Act grant was allowable.




                                                 6
While the Agency had developed a cost allocation plan, it did not always follow the methods of
allocating certain items of cost as described in the plan. As a result, the Agency charged some
costs that may not have been allocable to the Recovery Act grant.

Unallowable Costs Limited Resources for Program Goals

Because the Agency charged unallowable costs, the Agency could not use the funds to reduce
poverty, revitalize low-income communities, or empower individuals to become fully self-
sufficient.

RECOMMENDATIONS

We recommend that the State:

   •   return to the Federal Government unallowable costs totaling $36,142,

   •   either return to the Federal government $22,295 or work with the Agency to determine
       what portion of the $22,295 was allocable to the Recovery Act grant,

   •   ensure that the Agency improves its policies and procedures to ensure that only allocable
       costs are charged to Federal awards and that all costs charged to Federal awards are
       adequately documented, and

   •   ensure that the Agency follows its cost allocation plan when applicable.

AGENCY COMMENTS

The Agency concurred, in part, with our findings and recommendations. Regarding our first
finding, the Agency stated that, based on its review of available documentation and following its
cost allocation plan, $24,992 of the identified costs directly benefitted the Recovery Act grant
and was reasonable, allowable, and allocable. The Agency concurred that the remaining $11,150
was unallowable due to timing and human error. It stated that it would review its current cost
allocation plan to determine whether it should make any changes.

Regarding our second finding, the Agency believed that the $22,295 in costs identified as
potentially unallowable were reasonable, allowable, and allocable in accordance with its cost
allocation plan; however, the Agency stated that it would work with the State to document those
costs.

The complete text of the Agency’s comments is included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that the State claimed on behalf of the Agency $36,142 in unallowable costs and
$22,295 in costs that may not have been allocable to the Recovery Act grant.

                                               7
The Agency did not provide adequate documentation, such as invoices and purchase requisitions,
to support the costs we identified as unallowable. Instead, it provided spreadsheets showing how
costs were allocated between its CSBG and Recovery Act grants on a percentage basis. This
documentation alone was not adequate to support that the costs were allowable to the Recovery
Act grant.

STATE COMMENTS

In response to our draft report, the State acknowledged that some unallowable costs had been
charged but did not concur with the majority of the unallowable costs and potentially
unallowable costs we identified.

The State concurred that the Agency made unallowable charges to the Recovery Act grant of
$4,887. For the remaining $31,255 in unallowable costs and $22,295 in potentially unallowable
costs we identified, the State requested that we review documentation the Agency provided to
the State. The State believed this documentation justified most of the questioned items. The
documentation included support for travel expenses; expenses related to a summer program; and
expenses for office supplies, telephones, utilities, and equipment allocated to the Recovery Act
grant based on the Agency’s cost allocation plan.

The State said that it planned to visit the Agency to ensure that it improved its policies and
procedures for allocating and documenting costs charged to Federal awards. Through Agency
monitoring, the State said that it would ensure that the Agency followed its cost allocation plan
and supported costs with adequate documentation.

The complete text of the State’s response is included as Appendix B. The additional Agency
documentation provided by the State is not included.

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on our analysis of the additional information that the State provided with its comments on
our draft report, we reduced the potentially unallowable costs from $41,396 to $22,295;
however, we hold that the remaining $31,255 was unallowable and $22,295 was potentially
unallowable.

For the costs we had identified as unallowable, the Agency provided documentation and stated
that the costs had been originally charged entirely to its CSBG grant. The Agency stated that,
because the Recovery Act grant had received little or none of the costs, it transferred some of the
costs to the Recovery Act grant. However, the documentation did not show that the transferred
costs were incurred specifically for the Recovery Act grant.

For costs we identified as potentially unallowable, the Agency’s documentation provided
additional supporting documentation; however, the documentation did not show that the costs
benefitted both grants and were distributed in reasonable proportion to the benefits received or

                                                 8
that the costs had been treated consistently with other similar costs. Thus, we maintain that these
costs may not have been allocable to the Recovery Act grant and therefore were potentially not
allowable.




                                                9
APPENDIXES
                              Page 1 of 2

APPENDIX A: AGENCY COMMENTS
Page 2 of 2
                             Page 1 of 3

APPENDIX B: STATE COMMENTS
Page 2 of 3
Page 3 of 3
